OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/INDONESIA’S
TSUNAMI-RELATED HOUSING
CONSTRUCTION ACTIVITIES
IMPLEMENTED BY
COOPERATIVE HOUSING
FOUNDATION INTERNATIONAL
AUDIT REPORT NO. 5-497-08-002-P
January 31, 2008




MANILA, PHILIPPINES

Office of Inspector General


January 31, 2008

MEMORANDUM

TO:                  USAID/Indonesia Director, Walter North

FROM:                Acting Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:             Audit of USAID/Indonesia’s Tsunami-Related Housing Construction Activities
                     Implemented by Cooperative Housing Foundation International (Audit Report No.
                     5-497-08-002-P)

This memorandum transmits the Office of Inspector General’s final report on the subject audit.
In finalizing the report, we considered your comments to the draft report and included the
comments in Appendix II.

Based on our review of the Mission’s comments, we determined management decisions have
been reached for Recommendation Nos. 1 and 2. A determination of final action for both
recommendations will be made by the Audit Performance and Compliance Division
(M/CFO/APC) upon completion of the proposed corrective actions.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd, 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 3 


Audit Finding ................................................................................................................... 4 


Were USAID/Indonesia’s tsunami-related housing 

construction activities being implemented by the
Cooperative Housing Foundation International (CHF)
achieving planned results?

     USAID Needed to Ensure That
     Program Realized its Full Impact ................................................................................ 6 


Evaluation of Management Comments ......................................................................... 9 


Appendix I – Scope and Methodology ........................................................................ 10 


Appendix II – Management Comments ....................................................................... 12 

SUMMARY OF RESULTS

In May 2005, the U.S. Government appropriated $656 million to USAID for its Tsunami
Recovery and Reconstruction Fund to assist the victims of the December 2004
earthquake and the resulting tsunami. From these funds, USAID/Indonesia budgeted
$62.3 million for its Transition from Camps to Communities Program, aimed at improving
the ability of earthquake and tsunami victims in Aceh, Indonesia, to rapidly restore their
communities and resume gainful economic activity. The transition activities focused on
shelter, livelihoods, and related transition support. Of the $62.3 million budget, $11.5
million was allocated for permanent shelter activities (see page 2).

To assist in the provision of permanent shelter for thousands of internally displaced
persons, on October 3, 2005, USAID/Indonesia awarded a $10.6 million 2-year
cooperative agreement to Cooperative Housing Foundation International (CHF) to
implement the High Impact and Revitalization of the Economy of Aceh (HIRE-Aceh)
program. The agreement included a $6.2 million cost-sharing component to be
generated by CHF from other donors, resulting in a total program budget of
approximately $16.8 million. A subsequent modification raised the USAID portion to
$11.5 million (see page 2).

As part of its fiscal year 2007 audit plan, the Regional Inspector General/Manila
conducted this audit to determine whether USAID/Indonesia’s tsunami-related housing
construction activities being implemented by CHF were achieving planned results (see
page 3). As of March 31, 2007, those activities were achieving planned results with the
completion of 582 houses in accordance with CHF’s revised construction schedule.
Those houses provided shelter for 1,667 beneficiaries under the HIRE-Aceh program.
Subsequent to the date of fieldwork, USAID/Indonesia reported that CHF had completed
842 of the total 1,000 houses planned for completion by September 30, 2007. USAID
provided CHF with a no-cost extension until June 30, 2008, to finish the construction
(see page 4). USAID/Indonesia’s agreement with CHF was intended to support activities
in three areas: construction of permanent houses, livelihoods restoration, and
community economic infrastructure. However, because of cost inflation and construction
delays, USAID/Indonesia modified its agreement with CHF to shift the focus of the
agreement primarily to the construction of houses (see page 5).

The report made two recommendations to help the Mission achieve its objective of
assisting earthquake-tsunami victims (see page 8). In its response to the draft report,
USAID/Indonesia generally agreed with the findings and recommendations. Based on a
review of the Mission’s comments, the audit determined that management decisions have
been reached for Recommendation Nos. 1 and 2. A determination of final action for both
recommendations will be made by the Audit Performance and Compliance Division
(M/CFO/APC) upon completion of the proposed corrective actions (see page 9).

USAID/Indonesia’s written comments on the draft report are included in their entirety as
Appendix II to this report




                                                                                        1
BACKGROUND 

On December 26, 2004, the most powerful earthquake in 40 years struck in the Indian
Ocean, 150 km off the coast of the Indonesian province of Aceh. Of the 12 nations
struck by the resulting tsunami, Indonesia suffered the most, and the hardest hit was the
Indonesian province of Aceh, where 130,000 people were confirmed dead and 37,000
missing. An additional 500,000 were displaced.

In response to this catastrophic event, in May 2005, the U.S. Government appropriated
$656 million to USAID, of which about $400 million was provided to USAID/Indonesia for
its Tsunami Recovery and Reconstruction Fund to assist the victims of the tsunami.
From these funds, USAID/Indonesia budgeted $62.3 million for its Transition from
Camps to Communities, one of four program components supported by its tsunami
reconstruction efforts. This program identified three fundamental types of transition
activities with a goal of improving the ability of earthquake and tsunami victims in Aceh
to rapidly restore their communities and resume gainful economic activity. These
transition activities focused on shelter, livelihoods, and related transition support. Of the
$62.3 million budget, $11.5 million was allocated for permanent shelter activities.

Rebuilding housing was a critical part of restoring hope and livelihoods in tsunami-
affected areas of Indonesia, and the Government of Indonesia (GOI) placed a high
priority on hastening housing construction to provide permanent shelter for thousands of
internally displaced persons.

To help the GOI reach its shelter goals, on October 3, 2005, USAID awarded a 2-year,
$10.6 million cooperative agreement to Cooperative Housing Foundation International
(CHF), which included a cost-sharing component of an additional $6.2 million in
matching funds to be generated from other donors, for a total program budget of
approximately $16.8 million. USAID’s agreement with CHF was originally intended to
support activities in three areas: the construction of 1,000 permanent houses, livelihoods
restoration, and community economic infrastructure restoration (such as the
reconstruction of public markets). Owing to higher material and labor costs affecting the
pace of shelter reconstruction, however, USAID agreed in September 2006 that its grant
would be solely devoted to shelter activities to maximize the number of houses built
through its funding assistance. On March 8, 2007, USAID/Indonesia modified its
agreement with CHF, increasing the U.S. Government’s contribution to $11.5 million.

As of March 31, 2007, USAID/Indonesia had obligated $11.5 million and disbursed $6
million to CHF for this project. USAID/Indonesia’s Aceh Recovery and Reconstruction
Office is responsible for managing the Aceh Recovery and Reconstruction Program,
which includes the shelter activities.




                                                                                           2
AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year 2007
annual audit plan to answer the following question:

   	 Were USAID/Indonesia’s tsunami-related housing construction activities being
      implemented by the Cooperative Housing Foundation International achieving
      planned results?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                        3
AUDIT FINDINGS

As of March 31, 2007, USAID/Indonesia’s tsunami-related housing construction activities
being implemented by the Cooperative Housing Foundation International (CHF) were
achieving planned results, with 582 houses completed in accordance with its revised
construction schedule. As of that date, CHF had constructed 582 new houses as
scheduled, providing shelter for 1,667 beneficiaries under the High Impact Revitalization of
the Economy of Aceh (HIRE-Aceh) program. In addition, CHF had started construction on
108 new houses and expected to complete all of them by the end of June 2007.1




                  Photograph taken in the village of Kreung Tunong, showing a cluster of
                    houses almost completed. (Office of Inspector General, May 2007)


Table 1, on the following page, shows the construction progress throughout the Aceh
villages as of March 31, 2007.




1
  Subsequent to the date of the fieldwork, USAID/Indonesia reported that CHF had completed 842 of
the total 1,000 houses it had planned to complete by September 30, 2007. USAID provided CHF
with a no-cost extension until June 30, 2008, to finish the construction.


                                                                                               4
                   Table 1: Construction Status as of March 31, 2007
                                        No. of Completed         No. of Houses
               Location (Village)            Houses               in Progress
            Lambaro                             46
            Meunasah Tutong                     87
            Gle Jong                            87
            Teumareum                           99
            Babah Ie                            59
            Darat                               90
            Pulot                               57
            Geumbak Meualon                     57                      3
            Kreung Tunong                                              105
            Total                               582                    108

USAID/Indonesia’s agreement called for CHF to complete the construction of 1,000 houses
by September 30, 2007. Under the cost-sharing arrangement, USAID/Indonesia would fund
the construction of 800 houses and CHF would secure other donor funds for the
construction of the remaining 200 houses. Throughout the agreement period, CHF revised
the scheduled interim completion dates for construction because of a number of challenges
regarding cost escalation and the ability to guarantee donor funding. As a result, CHF
modified its original construction schedule, revising interim targets from its initial November
2005 work plan to reflect actual construction to date. Table 2 outlines the revised targets.

                     Table 2: Revised Targets as of March 31, 2007
                                        November       February       October
            Period of Construction        2005           2006          2006
                                        Work Plan      Work Plan     Work Plan
           Jan 1–Mar 31, 2006              100             20             0
           Apr 1–Jun 30, 2006              150            200            22
           July 1–Sep 30, 2006             150            239           278
           Oct 1–Dec 31, 2006              160            165           282
           Jan 1–Jun 30, 2007*             340            357           313
           July 1–Sep 30, 2007             100             19           105
           Total                          1,000         1,000          1,000
           *CHF did not complete construction of any houses between January 1
           and March 31, 2007. Therefore, as of March 31, 2007, the total number
           of completed houses remained at 582, unchanged from December 31,
           2006.

As mentioned above, CHF faced several challenging issues that affected its ability to meet
the initial work plan schedule. The more significant issues were the following:

   	 CHF experienced cost increases for labor and materials, along with construction
      delays, which if continued would significantly affect its ability to construct the
      remaining number of houses required under the agreement.

   	 Although circumstances have changed significantly, CHF experienced delays at the
      beginning of its program in obtaining the donor funding needed to complete
      construction of the planned number of houses.



                                                                                             5
As a result of the above challenges, USAID/Indonesia modified its agreement with CHF by
redirecting CHF’s efforts to focus primarily on the construction of 1,000 houses, thereby
shifting its focus away from the other two objectives, economic infrastructure and livelihood
activities. This change in focus was attributed largely to rising construction costs.

Despite the completion of 582 houses as planned as of March 31, 2007, the program was
not making its intended impact, because the audit disclosed that only 70 percent of the 114
physically inspected houses were occupied. If not dealt with, this issue could ultimately
have a negative impact on the program. The occupancy issue is discussed in further detail
below.

USAID Needed to Ensure That
Program Realized Its Full Impact
    Summary: USAID/Indonesia’s goal in constructing 1,000 new homes was to provide an
    estimated 5,000 beneficiaries an opportunity to return to a home. Although CHF had
    completed construction of 582 houses, not all the houses were occupied and benefiting
    the intended beneficiaries. Two factors contributed to the less than 100 percent
    occupancy rates; USAID/Indonesia had not required CHF to develop and enforce
    practical criteria for ensuring that intended beneficiaries were occupying the houses, and
    land entitlement issues created problems. As a result, some houses funded with foreign
    assistance dollars remained empty and at risk of vandalism, and were not providing
    shelter for the intended beneficiaries.

Rebuilding housing was a critical part of restoring hope and livelihoods in tsunami-affected
areas of Indonesia, where the Government of Indonesia (GOI) identified the need for
128,000 houses in early 2006. In response to this crisis, construction of safe housing to
facilitate the rapid return of internally displaced populations to appropriate living conditions
was a central feature of the CHF’s HIRE-Aceh program. With the construction of 1,000 new
homes, an estimated 5,000 beneficiaries would be able to return to a home.

As of March 31, 2007, CHF had completed 582 houses; however, not all the houses were
occupied and benefiting the intended beneficiaries.2 During a field visit to Aceh, Indonesia,
the Office of Inspector General audit team visited eight of the nine villages where CHF
reported that the house construction was either in progress or fully completed. The audit
team physically inspected 114 of the 582 completed houses and observed that 34 of the
114 inspected houses were vacant.

CHF was facing significant challenges in ensuring that houses handed over to beneficiaries
in the villages of Pulot, Gle Jong, and Darat were occupied by the intended beneficiaries.
Less than optimal housing occupancy was attributed to a variety of social and economic
circumstances, including the following:

      •	 BRR’s definition of what constituted a beneficiary sometimes resulted in giving a
         house to a beneficiary who could not live in the house alone.
      •	 A lack of services such as electricity and adequate water systems.
2
  The Reconstruction and Rehabilitation Agency (BRR), a Government of Indonesia agency, defined
the intended housing beneficiaries as tsunami victims who previously possessed a house.


                                                                                              6
   •	 Individual preference to remain in existing barracks owing to close social ties, a
      situation particular to single mothers and orphans.
   •	 Employment opportunities far from the housing sites.




                Photograph of a vacant house in Babah le. The beneficiary is a male
                market vendor who is currently staying close to his place of business.
                              (Office of Inspector General, May 2007)


BRR identified beneficiaries as victims or their heirs who will receive new housing to
replace houses destroyed by the disaster. As a result, the BRR assigned some houses to
(1) very minor children who lived with relatives and could not live alone and (2) widowers
who moved away in order to be closer to their jobs or prospects of finding another wife. As
a result, these houses remained unoccupied. USAID/Indonesia did not take exception to
the houses being vacant when the intended beneficiaries fell into one of these two
categories.

A second factor that could impair the effectiveness of the program in expeditiously
providing permanent shelter to the intended beneficiaries was a land title dispute in
Geumbak Meualon, where CHF had completed construction of 57 houses. CHF reported
that a third party was claiming ownership of land upon which CHF had built houses under
the agreement. CHF asserted that it undertook an exhaustive land ownership verification
process and also had obtained BRR project authorization. However, new information from
sources at BRR stated that the proclaimed owner of the land holds a land certificate dating
back to 1926 and renewed in 1952. BRR now considers the beneficiaries throughout the
area to be renters and squatters until the dispute is resolved. The outcome of this dispute
could have a negative impact on the 197 beneficiaries that CFH reported as occupying the
57 houses. Since the land dispute issue in Geumbak Meualon is not within the direct
control of the Mission, the Office of Inspector General makes no recommendation
concerning this matter. However, it is suggested that the Mission continue to monitor and
evaluate the situation and take appropriate actions.




                                                                                         7
The underlying impact of the above-mentioned factors is that houses funded by the U.S.
Government are not serving the intended beneficiaries of this program. Furthermore,
vacant houses are subject to vandalism and destruction. To help the Mission achieve its
objective of assisting earthquake-tsunami victims, this report recommends the following:

       Recommendation No. 1: We recommend that USAID/Indonesia identify
       unoccupied houses that have been awarded to beneficiaries and require
       Cooperative Housing Foundation International to prepare a formal plan on how to
       ensure occupancy of the houses and protection of the property until they are
       occupied.

       Recommendation No. 2: We recommend that USAID/Indonesia review the current
       criteria for designation of beneficiaries to receive houses constructed by
       Cooperative Housing Foundation International. The review of beneficiary criteria
       should consider such issues as the ability of the beneficiary to occupy a house in a
       reasonable period, requiring the protection of the house until it is occupied, and the
       recertification of the beneficiary when that beneficiary is assigned a house more
       than 3 months in advance of completion.




                                                                                           8
EVALUATION OF
MANAGEMENT COMMENTS
In its response to this draft report, USAID/Indonesia generally agreed with the findings
and recommendations. Based on a review of the Mission’s comments, the Office of
Inspector General determined that management decisions have been reached for
Recommendation Nos. 1 and 2.

In response to Recommendation No. 1, USAID/Indonesia reported that Cooperative
Housing Foundation International agreed to prepare an updated occupancy plan,
outlining how occupancy of all constructed houses will be ensured and reasonable
measures to be taken to protect the completed houses prior to occupancy. The Mission
expects to finalize and approve the plan by mid-February 2008. Regarding the land title
dispute in Geumbak Meualon, the Mission stated that the issue was resolved, and as a
result occupancy rates in Geumbak Meualon reached 92 percent as of
September 30, 2007.

In response to Recommendation No. 2, USAID/Indonesia emphasized that the Mission
is not responsible for establishing eligibility criteria for beneficiaries provided houses
under the HIRE-Aceh program. However, after reviewing the current criteria, the
Mission concluded that a change is not warranted. In addition, the Mission believes that
its actions in response to Recommendation No. 1 will mitigate this issue. As part of the
occupancy plan, consideration will be given to a designated beneficiary’s ability to
occupy a house within a specified period following notification of completion of
construction.

To reach final actions on these recommendations, USAID/Indonesia will need to review
and approve the occupancy plan to ensure that it meets the expected requirements.

A determination of final action for Recommendations Nos. 1 and 2 will be made by the
Audit Performance and Compliance Division (M/CFO/APC) upon completion of the
proposed corrective actions.




                                                                                        9
                                                                                     APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila conducted this audit in accordance with
generally accepted government auditing standards. The purpose of the audit was to
determine whether USAID/Indonesia’s tsunami-related housing construction activities
being implemented by Cooperative Housing Foundation International (CHF) were
achieving planned results.3

On October 3, 2005, USAID/Indonesia awarded a 2-year, $16.8 million cooperative
agreement to CHF to implement tsunami-related housing construction activities. The
amount of the award included USAID/Indonesia funding of $10.6 million and $6.2 million
in matching donor funds to be generated by CHF. On March 8, 2007, USAID/Indonesia
modified its agreement with CHF, approving an additional $959,000 in funding and
thereby increasing the U.S. Government contribution to $11.5 million. As of
March 31, 2007, USAID/Indonesia had obligated $11.5 million and disbursed $6 million
to CHF.

Although the cooperative agreement provided for the delivery of outputs related to the
construction of permanent shelters, livelihood restoration, and community economic
infrastructure, the audit team focused on the permanent shelter construction component,
a critical part of restoring hope and livelihoods in tsunami-affected areas.

The audit was performed in Jakarta and Aceh Province in Indonesia from April 30
through May 18, 2007. It covered CHF housing construction activities from
October 3, 2005, through March 31, 2007, including significant ongoing issues related to
the housing program.

Audit fieldwork was conducted at USAID/Indonesia and CHF offices in Jakarta and
Banda Aceh, the office of the Government of Indonesia’s Reconstruction and
Rehabilitation Agency of Aceh and Nias (BRR) in Banda Aceh, and the UN-HABITAT4
liaison office in Jakarta.

As part of the audit, the audit team assessed the significant internal controls that
USAID/Indonesia used to manage its tsunami-related housing construction activities. The
assessment included controls related to whether the Mission (1) conducted and
documented site visits to evaluate progress and monitor quality, (2) required and approved
CHF work plans, and (3) reviewed CHF progress reports. The audit also reviewed the
Mission’s annual self-assessment of internal controls in accordance with the Federal
Managers Financial Integrity Act. Finally, the audit reviewed relevant prior audit reports,
including those issued by the U.S. Government Accountability Office.



3
  The audit of results was limited to outputs (a tangible, immediate, and intended product or 

consequence of an activity within USAID’s control), which in this audit pertained to completed 

houses.

4
  UN-HABITAT is the United Nations’ lead agency for human settlements development. 



                                                                                                   10
Methodology

To answer the audit objective, the audit team interviewed officials and staff from
USAID/Indonesia, CHF, BRR, and UN-HABITAT. In addition, the audit team reviewed
and analyzed relevant documents at both the Mission and CHF. This documentation
included annual work plans, the cooperative agreement and its modifications, site visit
and other monitoring reports, progress reports, and financial reports and records.

To verify the accuracy and reliability of the reported performance data, the audit traced
the 582 houses reported as completed to substantial completion reports and to the
handover reports in accordance with the concept notes approved by BRR for a particular
village. In addition, the audit traced completed individual houses from the master list
maintained for each village by CHF to the supporting handover certificates. Finally, the
audit judgmentally selected and examined 144 certificates issued to individual
beneficiaries.

Furthermore, the audit team conducted site visits to eight of nine villages5 where house
construction was either in progress or fully completed, observed program activities, and
examined the quality of the houses. The audit team physically inspected 114 houses and
determined them to be substantially completed. In addition, the audit team interviewed
house beneficiaries to assess their satisfaction with the quality of the houses and the
adequacy of their utilities, such as water, septic, and electric systems.

The Office of Inspector General established the following materiality threshold criteria to
measure progress on the tsunami-related housing construction activities:

•	 The audit objective would be met if 90 percent or more of the housing units planned
   to be completed were actually completed.

•	 The audit objective would be partially met if less than 90 percent but not less than 70
   percent of housing units planned to be completed were actually completed.

The audit objective would not be met if less than 70 percent of housing units planned to
be completed were actually completed.




5
  The bridge leading to the village of Teumareum was not safe for vehicle traffic; therefore, the
site visit to this village was cancelled.


                                                                                                    11
                                                                          APPENDIX II 




MANAGEMENT COMMENTS 



                                                          December 28, 2007

MEMORANDUM

TO:                  Catherine Trujillo, RIG/Manila

FROM:                Walter North, Mission Director /s/

SUBJECT:             Mission Comments to the Draft Report on Audit of
                     USAID/Indonesia’s Tsunami-Related Housing
                     Construction Activities Implemented by Cooperative
                     Housing Foundation, International (Audit Report No.
                     5-497-08-00X-P)

USAID/Indonesia is pleased to provide the following comments on the above-referenced
draft audit report.

I. General Comment:

The USAID High Impact Revitalization of the Economy of Aceh (HIRE-Aceh) Program,
implemented through cooperative agreement with CHF International is an essential
component of the U.S. Government’s Tsunami Recovery and Reconstruction program in
Indonesia. USAID/Indonesia works to ensure that the program achieves its intended
results within the program funding level and schedule, as revised. As acknowledged by
RIG in the draft audit report, the program is achieving planned results. Given the
approximate 8 (eight) months period between the audit and the preparation of the draft
report, USAID/Indonesia wishes point out, however, that significant additional progress
has been achieved that is not reflected in the report. The number of houses fully
constructed as of December 31, 2007 was 842.

II. Mission Response to Draft Audit Recommendations:

A.     Draft Recommendation No. 1: The first recommendation in
the draft report states: “We recommend that USAID/Indonesia, identify
unoccupied houses that have been awarded to beneficiaries and require


                                                                                     12
Cooperative Housing Foundation International to prepare a formal plan on how to
ensure occupancy of the houses and protection of the property until they are
occupied.”

Mission Response to Draft Recommendation No. 1: USAID/Indonesia agrees with this
recommendation. When this problem was brought to the Mission’s attention, both
USAID and CHF immediately started to identify corrective measures. As of this date, in
collaboration with CHF, the Mission has identified all unoccupied houses constructed
under the HIRE-Aceh Program. Additionally, CHF has agreed to prepare an updated
occupancy plan for USAID/Indonesia’s review and approval. The plan would outline: 1)
how occupancy of all houses constructed under the program will be ensured; and 2) the
reasonable measures to be taken to protect the completed houses prior to occupancy. The
draft plan should be completed by the end of January 2008 and is being developed with
input from the USAID Cognizant Technical Officer (CTO). The final plan, as approved
by USAID/Indonesia, should be completed by mid-February 2008. The Mission will
ensure that RIG receives a copy of the final plan.

We are also pleased to report that the land title dispute in Geumbak Meualon,
cited as an issue that potentially threatened the achievement of program results
in the draft report, was resolved by the Badan Rehabilitasi dan Rekonstruksi
(BRR), the Government of Indonesia’s Aceh and Nias Reconstruction Agency.
The Mission’s view is that CHF International worked diligently and effectively,
through appropriate GOI channels, to support the resolution of this land dispute.
As a result of the work of BRR and CHF International, CHF reported that
occupancy rates for HIRE-Aceh program houses in Geumbak Meualon reached
92% as of September 30, 2007.

B. Draft Recommendation No. 2: The second recommendation in the draft
report states: “We recommend that USAID/Indonesia review the current criteria
for designation of beneficiaries to receive houses constructed by Cooperative
Housing Foundation International. The review of beneficiary criteria should
consider such issues as the ability of the beneficiary to occupy a house in a
reasonable period, requiring the protection of the house until it is occupied, and
the recertification of the beneficiary when that beneficiary is assigned a house
more than 3 months in advance of completion.”

The Mission Response to Draft Recommendation No. 2: First, the Mission
wishes to emphasize that the GOI, not USAID or CHF International, is
responsible for establishing criteria to identify eligible beneficiaries for houses
under the HIRE-Aceh program. As CHF progressed with construction of houses,
CHF made it clear to USAID that it was adhering to the GOI’s (BRR) criteria for
selection of beneficiaries. USAID concluded that the GOI’s criteria for selection
of beneficiaries is sound and does not warrant change. The Mission’s view is
that CHF is responsible for determining a designated beneficiary’s ability to
occupy a house within a reasonable period following notification of selection, as
well as determining whether beneficiary re-certification is needed.



                                                                                     13
Specifically, as noted in our response to draft Recommendation No. 1, CHF
International has agreed to develop, with assistance from the USAID CTO, an
improved plan that outlines procedures to ensure occupancy of houses as well
as protection of houses between completion of construction and occupancy.
This will include consideration of a designated beneficiaries ability and
commitment to occupy a house within a specified period following notification of
completion of construction.

Thank you for the opportunity to comment on the draft audit report.




                                                                               14
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
